No. 21-

 

Supreme Court of the Hnited States

APPLE INC.,
Petitioner,
v.

OPTIS CELLULAR TECHNOLOGY, LLC, OPTIS WIRELESS TECHNOLOGY, LLC, AND
UNWIRED PLANET INTERNATIONAL LIMITED,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, Catherine M.A. Carroll, a
member of the bar of this Court, certify that the accompanying Petition for a Writ of
Certiorari contains 8,999 words, excluding the parts of the document that are exempted
by Supreme Court Rule 33.1(d).

Executed on July 26, 2021.

Lather lew i>
CATHERINE M.A. CARROLL
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
catherine.carroll@wilmerhale.com
